                       DEPARTMENT OF HEALTH AND HUMA..N SERVICES


                  OFFICE OF INSPECTOR GENERAL
                                         WASHlNGTON, DC 2020 I



                                             SEP 0 5 2013 


TO:                Marilyn Tavenner
                   Administrator 

                   Centers for Medicare & Medicaid Services 

                      /S/
FROM:              Stuart Wright
                   Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicaid DMEPOS Costs May Be Exceeding
           Medicare Costs in Competitive Bidding Areas, OEI-06-13-00470


This memorandum report provides an example of potential Medicaid savings under a
provision in the President's Federal Fiscal Year (FFY) 2014 budget proposal to limit
Federal reimbursement for State Medicaid spending on items in the category of durable
medical equipment, prosthetics, orthotics, and supplies (DMEPOS) to what Medicare
would have paid. We compared payment amounts for the Texas Medicaid program and
the Medicare DMEPOS Competitive Bidding Program by examining the FFY 2011
fee-for-service payment amounts for 32 DMEPOS items covered by both programs. 1 The
findings illustrate differences between the two in fee-for-service payment amounts for
equipment and supplies and potential savings for the Dallas/Fort Worth area.

SUMMARY

We found that in FFY 2011, the Texas Medicaid fee-schedule amounts for 30 ofthe
32 DMEPOS items exceeded the payment amounts under the Medicare DMEPOS
Competitive Bidding Program. During this period, Texas Medicaid spent approximately
$12 million on these 32 items in the Dallas/Fort Worth area. If it had used the payment
amounts from the Medicare Competitive Bidding Program, Medicaid could have saved
approximately $2 million (State and Federal shares combined) in the Dallas/Fort Worth
area. In July 2013, the Medicare DMEPOS Competitive Bidding Program expanded to
cover a total of 100 metropolitan areas nationwide. If the State Medicaid programs were
to use the Medicare Competitive Bidding Program amounts-rather than the State
Medicaid fee-schedule amounts-the States and the Federal Government could achieve
savmgs.



1
    FFY 2011 began October I, 20 10, and ended September 30, 2011.
Page 2 – Marilyn Tavenner


BACKGROUND

Medicaid
The Medicaid program provides medical assistance to low-income individuals and those
with disabilities. The Centers for Medicare & Medicaid Services (CMS) and the States
jointly fund and administer Medicaid.2 Each State administers its Medicaid program in
accordance with a CMS-approved State plan.3 Medicaid beneficiary participation has
increased steadily in Texas over the last several years in fee-for-service and managed
care. From State fiscal years (SFYs)4 2008 to 2011, Texas Medicaid enrollment
increased by 20 percent, from 4.2 million beneficiaries (3.3 million in fee-for-service,
2.1 million in managed care) to 5.1 million beneficiaries (3.8 million in fee-for-service,
2.6 million in managed care).5

This increase in enrollment resulted in a corresponding increase in expenditures for
DMEPOS. From SFYs 2008 to 2011, the Medicaid expenditures for DMEPOS in Texas
increased by 48 percent, from $405 million ($347 million for fee-for-service and
$58 million for managed care) to $600 million ($499 million for fee-for-service and
$101 million for managed care).6 In SFY 2011, fee-for-service accounted for 83 percent
of Texas Medicaid expenditures and managed care accounted for 17 percent.7 However,
the proportion of services provided through managed care is growing, and on March 1,
2012, Texas Medicaid began transitioning approximately 880,000 beneficiaries from
fee-for-service to managed care.8

States establish their Medicaid payment amounts for all services—including DMEPOS—
working within Federal parameters to limit costs while ensuring access.9 The Social
Security Act requires that States establish payments that are “consistent with efficiency,
economy, and quality of care and are sufficient to enlist enough providers so that care and
services are available under the plan at least to the extent that such care and services are
available to the general population in the geographic area.”10 The President’s
FFY 2014 budget proposal also emphasized cost containment by Medicaid programs,
proposing “limiting Federal reimbursement for a State’s Medicaid spending on certain



2
  The portion of the Medicaid program funded by the Federal government is known as the Federal Medical

Assistance Percentage (FMAP). The FFY 2011 FMAP for Texas was 61 percent. 74 Fed. Reg.

62315–62317 (Nov. 27, 2009). 

3
  Social Security Act (SSA), Title XIX. 

4
  In Texas, the SFY differs from the FFY, running from September 1 to August 31.

5
  Texas Health and Human Services Commission (HHSC), SFY 2008 to SFY 2012 Texas Medicaid

Eligibility File. Medicaid beneficiaries may be enrolled in both fee-for-service and managed care during

the year. Therefore, the number of beneficiaries in the former plus the number of beneficiaries in the latter 

exceeds the total number of beneficiaries. 

6
  Figures provided on May 2, 2013, by HHSC Director of Rate Analysis for Acute Care Service. 

7
  HHSC, SFY 2008 to SFY 2012 Texas Medicaid Eligibility File. 

8
  Texas Medicaid Bulletin No. 239, Medicaid Managed Care Changes Effective March 2012. 

January/February 2012. 

9
  CMS, Fee for Service. Accessed at http://www.medicaid.gov/ on August 21, 2012. 

10
   SSA § 1902(a)(30)(A).



Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
Page 3 – Marilyn Tavenner


DME services to what Medicare would have paid in the same State for the same
services.”11

The Texas Health and Human Services Commission (HHSC) administers Texas’s
Medicaid program and sets Statewide fee-for-service payment amounts for DMEPOS.
HHSC policy indicates that it sets amounts for covered DMEPOS items “equal to or a
percentage of the Medicare reimbursement rate” for the procedure code on the Medicare
fee schedule specific to Texas.12 For items not covered under Medicare and for items
where the Medicare rate is deemed insufficient, HHSC uses other sources to determine
Medicaid payment amounts. These sources can include reimbursement amounts for
similar items within Texas, reimbursement amounts for the same or similar items in other
States, and the costs shown on manufacturers’ invoices. Every 2 years, HHSC reviews
Texas Medicaid payment amounts for DMEPOS to ensure that these amounts reflect
established payment methodologies. To complete these reviews, HHSC conducts public
hearings, solicits comments regarding the proposed payment amounts, and then publishes
the final payment amounts.13 Once established, these payment rates apply statewide.

Medicare DMEPOS Competitive Bidding
On January 1, 2011, CMS implemented the first phase of the Medicare DMEPOS
Competitive Bidding Program—known as the Round 1 Rebid—with the goals of
reducing both program and beneficiary costs while ensuring access to items and
services.14 The initial phase included selected DMEPOS items within nine competitive
bidding areas (CBA). Each CBA includes a metropolitan area and the ZIP Codes
surrounding it.15, 16

On August 19, 2011, CMS announced that the program would be expanded to an
additional 91 CBAs under Round 2, with new prices going into effect July 1, 2013.17 At
the same time, CMS will expand the Competitive Bidding Program for mail-order


11
   To date, this proposal has not been enacted into law. CMS, Department of Health and Human Services 

Fiscal Year 2014 Justification of Estimates for Appropriations Committees, p. 151. Accessed at

http://www.cms.gov/ on April 25, 2013. See also CMS, Fiscal Year 2013 DHHS Legislative Proposal, 

CMS-2013-17, p. 27. 

12
   Texas Administrative Code, Title 1, Part 15, § 355.8021. 

13
   HHSC Rate Analysis Department, Proposed Medicaid Payment Rates for Durable Medical Equipment,

Prosthetics, Orthotics and Supplies for: 1) Hospital Beds and Accessories (2) Incontinence Supplies 

(3) Miscellaneous Equipment and Supplies (4) Mobility Aids (5) Nutrition (Enteral and Parenteral)
(6) Wheelchairs and Accessories. February 15, 2012. Accessed at http://www.hhsc.state.tx.us/ on June 19, 

2013. 

14
   CMS, Medicare Claims Processing Manual, ch. 36, § 10. 

15
   CMS, Facts about the DMEPOS Competitive Bidding Program Round 1 Rebid Competitive Bidding

Areas (CBA). Accessed at http://www.dmecompetitivebid.com/ on August 21, 2012.

16
   The nine CBAs are: Charlotte, Gastonia, Concord (North Carolina and South Carolina); Cincinnati, 

Middletown (Indiana, Ohio, and Kentucky); Cleveland, Elyria, Mentor (Ohio); Dallas, Fort Worth,

Arlington (Texas); Kansas City (Kansas and Missouri); Miami, Fort Lauderdale, Pompano Beach (Florida);

Orlando, Kissimmee (Florida); Pittsburgh (Pennsylvania); and Riverside, San Bernardino, Ontario 

(California).

17
   CMS, Medicare To Save Taxpayers and Beneficiaries $28 Billion With an Expanded Competitive 

Bidding Program. August 19, 2011. Accessed at http://www.cms.gov/ on May 6, 2013. 



Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
Page 4 – Marilyn Tavenner


diabetic supplies to include all ZIP Codes in all parts of the United States.18 CMS
estimates that over 10 years, the program will save Medicare $25.8 billion and will save
Medicare beneficiaries $17.2 billion.19

Using the bids submitted by selected suppliers, CMS sets a single payment amount for
each DMEPOS item in each CBA that replaces the prior Medicare fee-schedule amount.20
The DMEPOS items included in the Competitive Bidding Program are generally
high-cost or high-volume products.21 DMEPOS items are grouped into product
categories, with each product category consisting of multiple related items (see Table 1).
Round 2 of the Competitive Bidding Program made several changes to the original
product categories, such as expanding the standard mobility device category to include
more items, adding a category for negative-pressure wound therapy pumps and related
supplies and accessories, and eliminating the category of complex rehabilitative power
wheelchairs.22

Table 1: Medicare DMEPOS Competitive Bidding Product Categories
Round 1 Rebid Product Categories                                  Round 2 Product Categories

    Oxygen, oxygen equipment, and supplies                            Oxygen supplies and equipment
    Standard power wheelchairs, scooters, and related                 Standard (power and manual) wheelchairs, scooters,
     accessories                                                        and related accessories
    Complex rehabilitative power wheelchairs and related              Enteral nutrients, equipment and supplies
     accessories (Group 2 only)                                        Continuous positive airway pressure, respiratory
    Mail-order diabetic supplies                                       assist devices, and related supplies and accessories
    Enteral nutrients, equipment, and supplies                        Hospital beds and related accessories
    Continuous Positive Airway Pressure devices and                   Walkers and related accessories
     Respiratory Assist Devices, and related supplies and              Support surfaces (Group 2 mattresses and overlays)
     accessories                                                       Negative pressure wound therapy pumps and related
    Hospital beds and related accessories                              supplies and accessories
    Walkers and related accessories
    Support surfaces (Group 2 mattresses and overlays in
     Miami CBA only).
Sources: CMS, DMEPOS Competitive Bidding–Round 1 Rebid Product Categories and HCPCS Codes; accessed at
http://www.dmecompetitivebid.com/ on August 21, 2012. Also see, CMS, Round 2 Items & Services; accessed at
http://www.dmecompetitivebid.com/ on July 31, 2012.




Previous OIG Work
In previous reports, OIG found opportunities for savings by lowering payments for
DMEPOS. A 2012 OIG report estimated that the Ohio Medicaid program could have
achieved savings of approximately $8 million during SFY 2011 by establishing a
competitive bidding program or through the use of manufacturer rebates for one type of

18
   CMS, Competitive Bidding Areas (CBAs). Accessed at http://www.dmecompetitivebid.com/ on 

July 31, 2012. 

19
   CMS, Department of Health and Human Services Fiscal Year 2014 Justification of Estimates for 

Appropriations Committees. Accessed at http://www.cms.gov/ on April 25, 2013. (p. 151) 

20
   SSA § 1847(b)(5); 42 CFR § 414.416. 

21
   CMS, General Overview of the Final Rule for Competitive Acquisition for Certain Durable Medical 

Equipment, Prosthetics, Orthotics, and Supplies. April 10, 2007. Accessed at https://www.cms.gov/ on

August 21, 2012. See also 72 Fed. Reg. 17992, 18021 (Apr. 10, 2007). 

22
   CMS, Round 2 Items & Services. June 2012. Accessed at http://www.dmecompetitivebid.com/ on 

July 31, 2012. 



Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
Page 5 – Marilyn Tavenner


DMEPOS product, home blood glucose test strips.23 The report estimated a potential cost
reduction of 50 percent per unit of diabetes testing strips. A 2013 OIG report found that
the New Jersey Medicaid program could have achieved savings of approximately
$1.8 million to $2.7 million during the period January 1, 2011, through December 31,
2011, by reducing reimbursement rates for testing strips to retail rates or by establishing a
competitive bidding program for testing strips.24

METHODOLOGY

We compared Texas Medicaid fee-for-service payment amounts for DMEPOS to
Medicare payment amounts for the same items in the Dallas/Fort Worth CBA.25 Using
CMS’s Durable Medical Equipment Standard Analytic File, we identified the first
6 months of 2011 Medicare claims for items covered under Round 1 Rebid of the
Medicare DMEPOS Competitive Bidding Program in the Dallas/Fort Worth CBA—i.e.,
claims for 211 Healthcare Common Procedure Coding System (HCPCS)26 codes.27 To
focus our review on those items likely to have the greatest impact on program
expenditures, we identified the covered items with the greatest amount in Medicare
reimbursement that were also covered by Texas Medicaid.28 We selected items with total
Medicare reimbursement amounts greater than $190,000 per HCPCS code during the
6-month period, which resulted in 26 covered items. We also identified the Medicare
fee-schedule amounts for these items.

Six of the twenty-six items are represented twice because there is one HCPCS code for
the purchase of the item and another for its rental, and the two codes are reimbursed at
different amounts.29 We added together the 26 single items and the 6 items represented

23
   OIG, Ohio Medicaid Costs for Home Blood-Glucose Test Strips Could Be Reduced by Approximately 

50 Percent, A-05-11-00098, March 2012. 

24
   OIG, New Jersey Medicaid Program Could Achieve Savings by Reducing Home Blood-Glucose Test 

Strip Prices, A-02-12-01010, forthcoming. 

25
   We did not analyze DMEPOS provided under managed care arrangements.

26
   HCPCS Level 1 numerical codes (e.g., 70405) are identical to CPT codes and are used by CMS
when services and procedures involve Medicare beneficiaries. The five character codes and
descriptions included in this report are obtained from Current Procedural Terminology (CPT®),
copyright 2011 by the American Medical Association (AMA). CPT is developed by the AMA as a
listing of descriptive terms and five character identifying codes and modifiers for reporting medical
services and procedures. Any use of CPT outside of this report should refer to the most current
version of the Current Procedural Terminology available from AMA. Applicable FARS/DFARS
apply.
27
   We excluded items in the complex rehabilitative power wheelchairs category because this category will
not be included in Round 2 of the Medicare DMEPOS Competitive Bidding Program. We also excluded
support surfaces because they are covered only in the Miami CBA.
28
   The HCPCS codes for blood glucose test strips (A4253) and lancets (A4259) are covered only under the
Medicare DMEPOS Competitive Bidding Program when they are provided via mail order. However,
Medicaid rules do not require States to distinguish when these items are delivered via mail order or picked
up in a retail store. We decided to keep these codes in our analysis.
29
   The following items are represented twice: enteral nutrition infusion pump (B9002); walker (E0143);
humidifier, heated (E0562); power wheelchair (K0822); power wheelchair (K0823); and power wheelchair
(K0825). Texas Medicaid uses the type-of-service codes 9 (other/DME purchase), J (purchase), and L
(rental) to determine pricing for DMEPOS items.


Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
Page 6 – Marilyn Tavenner


twice to arrive at 32 individual items to include in our final analysis. (See Appendix A
for a list of the 32 items.)

We used the Medicaid Management Information System (MMIS) to (1) identify the
FFY 2011 Texas Medicaid fee-for-service claims and (2) determine the volume of claims
for the 32 selected DMEPOS items. We included claims only for Medicaid beneficiaries
who lived in the Dallas/Fort Worth CBA, using the beneficiary ZIP Code information
stored in the FFY 2011 Medicaid Statistical Information System (MSIS) Eligibility File.

To determine whether one program’s payment amount exceeded that of the other, we
calculated the difference in payment amounts for each of the 32 items between Texas
Medicaid and the Medicare DMEPOS Competitive Bidding Program. For each item for
which the Texas Medicaid fee-schedule amount exceeded the Medicare payment amount,
we used the Medicaid claims volume to estimate the potential savings that could have
been achieved using the Medicare payment amount instead. We then calculated the
overall potential savings by summing the potential savings per item.

Limitations
The study has three significant scope limitations. We reviewed only a subset of
DMEPOS items (32 items). Also, we examined only one metropolitan area. As prior
OIG reports have noted, timely comprehensive Medicaid claims data for all States have
not been readily available from CMS.30 Therefore, we studied a single CBA, obtaining
FFY 2011 DMEPOS claims data directly from HHSC. We restricted the review to
Dallas/Fort Worth, the only CBA entirely located in Texas. We do not project our
findings beyond this study scope. Finally, we did not examine how the President’s
budget proposal, if implemented, would potentially affect the profit margins for
DMEPOS suppliers or beneficiaries’ access to DMEPOS supplies.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Texas Medicaid fee-schedule amounts exceeded the Medicare DMEPOS
Competitive Bidding Program payment amounts on almost all items
The FFY 2011 Texas Medicaid fee schedule amounts for 30 of the 32 items exceeded the
Medicare payment amounts. In FFY 2011, Texas Medicaid spent approximately
$12 million on the 32 items in the Dallas/Fort Worth CBA. If it had used the Medicare
payment amounts, Texas Medicaid could have saved approximately $2 million (State and
Federal shares combined) on these items in this CBA. For the remaining 2 of 32 items,
the Texas Medicaid fee-schedule amounts did not exceed the Medicare payment amounts.
Appendix B lists each of the 32 items, along with the associated payment amounts and
potential savings.


30
     OIG, MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse, OEI-04-07-00240, August 2009.


Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
Page 7 – Marilyn Tavenner


Of the 32 items, 6 items had Texas Medicaid fee-schedule amounts exceeding the
Medicare payment amounts by more than 200 percent, with the greatest difference being
360 percent. Table 2 lists these items; combined, they account for 8 percent ($163,432)
of the total potential savings.

Table 2: Items with the greatest differences between the payment amount from the
Texas Medicaid fee schedule and the Medicare DMEPOS Competitive Bidding Program
                                                                              Medicare       Texas Medicaid               Percent of
HCPCS       HCPCS Description                                                 Payment          Fee Schedule                Medicare
                                                                               Amount               Amount                 Payment
            Enteral formula, nutritionally complete, for special
B4154                                                                               $0.87                $3.13                360%
            metabolic needs (purchase)
            Enteral formula, nutritionally complete, hydrolyzed
B4153                                                                               $1.45                $4.74                327%
            proteins (purchase)
A4259       Lancets, per box of 100 (purchase)                                      $4.43               $11.10                251%
            Enteral formula, nutritionally complete, calorically
B4152                                                                               $0.41                $1.03                251%
            dense with intact nutrients (purchase)
            Enteral formula, nutritionally complete with intact
B4150                                                                               $0.48                $1.16                242%
            nutrients (purchase)
            Walker, folding, wheeled, adjustable or fixed height
E0143                                                                               $6.51               $14.62                225%
            (rental)
Source: OIG analysis of the work in Dallas/Fort Worth Medicare DMEPOS Competitive Bidding Program payment amounts and the FFY 2011
Texas Medicaid fee schedule.



Seventy-five percent of the potential savings ($1.5 million) came from five items.
Table 3 lists these items associated with the highest potential savings. Over half of this
$1.5 million in savings resulted from a single item: monthly rental of oxygen
concentrators (E1390), with potential savings of $883,483. Texas Medicaid paid $38.05
per month more than Medicare for this item. Oxygen concentrators also had the highest
Medicaid claims volume of the 32 items reviewed.

Table 3: Items associated with the highest potential savings if Texas Medicaid were to use the
Medicare DMEPOS Competitive Bidding Program payment amounts in Dallas/Fort Worth (DFW)
                                                                                             Texas              DFW
                                                                        Medicare
                                                                                          Medicaid          Medicaid          Potential
HCPCS       HCPCS Description                                           Payment
                                                                                      Fee-Schedule            Claims           Savings
                                                                         Amount
                                                                                           Amount            Volume
E1390       Oxygen concentrator, single delivery port (rental)           $123.00             $161.05             23,219        $883,483
            Blood glucose test or reagent strips for home blood
A4253                                                                     $14.25              $28.28             13,307        $186,697
            glucose monitor (purchase)
            Power wheelchair, group 2 standard, captain’s chair,
K0823       patient weight capacity up to and including 300            $2,448.20            $2,703.93              598         $152,927
            pounds (purchase)
A4259       Lancets, per box of 100 (purchase)                              $4.43             $11.10             22,510        $150,142
            Hospital bed, semi-electric, with any type side rails,
E0260                                                                     $79.33             $111.87              4,374        $142,330
            with mattress (rental)
                                                                          Total potential savings from top 5 items           $1,515,578
Source: OIG analysis of the Dallas/Fort Worth Medicare DMEPOS Competitive Bidding Program payment amounts, the FFY 2011 Texas Medicaid
fee schedule, and the FFY 2011 MMIS claims data.




Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
Page 8 – Marilyn Tavenner


CONCLUSION

State Medicaid programs are required to establish payments that are consistent with
efficiency, economy, and quality of care, and the President’s FFY 2014 budget proposes
to limit Federal reimbursement for State Medicaid spending on DMEPOS items to what
Medicare would have paid. Through competitive bidding, the Medicare program has
demonstrated that DMEPOS can be accessible to beneficiaries at lower costs to the
program. Our findings provide a tangible example of potential State and Federal savings
for Medicaid programs if the programs were to use the Medicare Competitive Bidding
payment amounts for DMEPOS items. Access to more timely Medicaid claims data
would allow further analysis to better understand the full potential of the proposal to limit
Federal reimbursement for State Medicaid spending on DMEPOS items to Medicare
payment rates.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-06-13-00470 in all correspondence.




Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
Page 9 – Marilyn Tavenner


APPENDIX A


Table A-1: Items Covered Under Both the Medicare DMEPOS Competitive Bidding Program and
the Texas Medicaid Program
                                                                                                                    Medicare Type
HCPCS       HCPCS Description
                                                                                                                    of Service
A4253       Blood glucose test or reagent strips for home blood glucose monitor, per 50 strips                      Purchase
A4259       Lancets, per box of 100                                                                                 Purchase
A7030       Full face mask used with positive airway pressure device, each                                          Purchase
A7032       Cushion for use on nasal mask interface, replacement only, each                                         Purchase
A7034       Nasal interface used with positive airway pressure device, with or without head strap                   Purchase
A7035       Headgear used with positive airway pressure device                                                      Purchase
A7037       Tubing used with positive airway pressure device                                                        Purchase
B4034       Enteral feeding supply kit; syringe fed                                                                 Purchase
B4035       Enteral feeding supply kit; pump fed                                                                    Purchase
            Enteral formula, nutritionally complete with intact nutrients, administered through an enteral
B4150                                                                                                               Purchase
            feeding tube
            Enteral formula, nutritionally complete, calorically dense, administered through an enteral feeding
B4152                                                                                                               Purchase
            tube
            Enteral formula, nutritionally complete, hydrolyzed proteins, administered through an enteral
B4153                                                                                                               Purchase
            feeding tube
            Enteral formula, nutritionally complete, for special metabolic needs, administered through an
B4154                                                                                                               Purchase
            enteral feeding tube
                                                                                                                    Purchase
B9002       Enteral nutrition infusion pump - with alarm
                                                                                                                    Rental
                                                                                                                    Purchase
E0143       Walker, folding, wheeled, adjustable or fixed height
                                                                                                                    Rental
E0260       Hospital bed, semi-electric, with any type side rails, with mattress                                    Rental
E0431       Portable gaseous oxygen system                                                                          Rental
E0439       Stationary liquid oxygen system                                                                         Rental
E0470       Respiratory assist device, bi-level pressure capability, without backup rate feature                    Rental
E0471       Respiratory assist device, bi-level pressure capability, with backup rate feature                       Rental
                                                                                                                    Purchase
E0562       Humidifier, heated, used with positive airway pressure device
                                                                                                                    Rental
E0601       Continuous airway pressure device                                                                       Rental
E1390       Oxygen concentrator, single delivery port                                                               Rental
            Power wheelchair, group 2 standard, sling/solid seat/back, patient weight capacity up to and            Purchase
K0822
            including 300 pounds                                                                                    Rental
            Power wheelchair, group 2 standard, captain’s chair, patient weight capacity up to and including        Purchase
K0823
            300 pounds                                                                                              Rental
            Power wheelchair, group 2 heavy duty, captain’s chair, patient weight capacity 301 to                   Purchase
K0825
            450 pounds                                                                                              Rental
Source: OIG analysis of the Medicare DMEPOS Competitive Bidding Program payment amounts and the FFY 2011 Texas Medicaid fee schedule.




Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
              Page 10 – Marilyn Tavenner


              APPENDIX B

Table B-1: Potential Texas Medicaid Program Cost Savings If Medicare DMEPOS Competitive Bidding Payment
Amounts Had Been Used in the Dallas/Fort Worth (DFW) Competitive Bidding Area During FFY 2011
                                                                                          Texas      Difference
                                                                                                                        DFW
                                                           Medicaid      Medicare      Medicaid        between                                     Percentage
                                                                                                                    Medicaid           Potential
HCPCS      HCPCS Description                               Type of       Payment            Fee       Medicare                                     of Medicare
                                                                                                                      Claims            Savings
                                                           Service        Amount       Schedule             and                                       Payment
                                                                                                                     Volume
                                                                                        Amount        Medicaid
           Blood glucose test or reagent strips for
A4253                                                      Purchase         $14.25        $28.28         $14.03        13,307          $186,697         198%
           home blood glucose monitor, per 50 strips
A4259      Lancets, per box of 100                         Purchase           $4.43       $11.10          $6.67        22,510          $150,142         251%
           Full face mask used with positive airway
A7030                                                      Purchase        $119.51       $157.06         $37.55            77            $2,891         131%
           pressure device, each
           Cushion for use on nasal mask interface,
A7032                                                      Purchase         $25.67        $33.75          $8.08            51              $412         131%
           replacement only, each
           Nasal interface used with positive airway
A7034                                                      Purchase         $73.12        $48.97        -$24.15            89      No savings             67%
           pressure device, with or without head strap
           Headgear used with positive airway
A7035                                                      Purchase         $21.61        $24.84          $3.23           114              $368         115%
           pressure device
           Tubing used with positive airway pressure
A7037                                                      Purchase         $18.15        $15.96          -$2.19          157      No savings             88%
           device
B4034      Enteral feeding supply kit; syringe fed         Purchase           $3.83        $5.76          $1.93         2,472            $4,771         150%
B4035      Enteral feeding supply kit; pump fed            Purchase           $7.35       $10.74          $3.39        13,465           $45,646         146%
           Enteral formula, nutritionally complete with
B4150      intact nutrients, administered through an       Purchase           $0.48         $1.16         $0.68         4,306            $2,928         242%
           enteral feeding tube
           Enteral formula, nutritionally complete,
B4152      calorically dense, administered through an      Purchase           $0.41         $1.03         $0.62         3,315            $2,055         251%
           enteral feeding tube
           Enteral formula, nutritionally complete,
B4153      hydrolyzed proteins administered through        Purchase           $1.45         $4.74         $3.29           654            $2,152         327%
           an enteral feeding tube
           Enteral formula, nutritionally complete, for
B4154      special metabolic needs, administered           Purchase           $0.87         $3.13         $2.26         2,634            $5,953         360%
           through an enteral feeding tube
                                                           Purchase        $850.53     $1,208.44        $357.91            88           $31,496         142%
B9002      Enteral nutrition infusion pump - with alarm
                                                           Rental           $85.05       $117.04         $31.99         3,022           $96,674         138%
           Walker, folding, wheeled, adjustable or         Purchase         $65.12        $92.22         $27.10         1,087           $29,458         142%
E0143
           fixed height                                    Rental            $6.51        $14.62          $8.11            25           $202.75         225%
           Hospital bed, semi-electric, with any type
E0260                                                      Rental           $79.33       $111.87         $32.54         4,374          $142,330         141%
           side rails, with mattress
E0431      Portable gaseous oxygen system                  Rental           $21.00        $26.47          $5.47        14,175           $77,537         126%
E0439      Stationary liquid oxygen system                 Rental          $123.00       $159.32         $36.32           754           $27,385         130%
           Respiratory assist device, bi-level pressure
E0470                                                      Rental          $150.00       $213.64         $63.64           560           $35,638         142%
           capability, without backup rate feature
           Respiratory assist device, bi-level pressure
E0471                                                      Rental          $342.51       $363.60         $21.09           555           $11,705         106%
           capability, with backup rate feature
           Humidifier, heated, used with positive          Purchase        $179.92       $250.79         $70.87           199           $14,103         139%
E0562
           airway pressure device                          Rental           $17.99        $25.07          $7.08         1,183            $8,376         139%
E0601      Continuous airway pressure device               Rental           $59.90        $85.58         $25.68         1,998           $51,309         143%
E1390      Oxygen concentrator, single delivery port       Rental          $123.00       $161.05         $38.05        23,219          $883,483         131%
           Power wheelchair, group 2 standard,             Purchase      $2,448.11     $2,715.89        $267.78            30            $8,034         111%
K0822      sling/solid seat/back, patient weight
           capacity up to and including 300 pounds         Rental          $244.81       $282.17         $37.36             7              $262         115%
           Power wheelchair, group 2 standard,             Purchase      $2,448.20     $2,703.93        $255.73           598          $152,927         110%
K0823      captain’s chair, patient weight capacity up
           to and including 300 pounds                     Rental          $244.82       $272.85         $28.03            70            $1,963         111%
           Power wheelchair, group 2 heavy duty,           Purchase      $2,900.00     $3,343.50        $443.50            85           $37,698         115%
K0825      captain’s chair, patient weight capacity
           301 to 450 pounds                               Rental          $290.00       $365.82         $75.82             2              $152         126%
Totals                                                                                                               115,182       $2,014,745
Source: OIG analysis of the Medicare DMEPOS Competitive Bidding Program payment amounts, the FFY 2011 Medicaid fee schedule, and the
FFY 2011 MMIS claims data.




              Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in CBAs (OEI-06-13-00470)
